NO.
IN THE
SUPREME COURT OF THE UNITED STATES
KRISTIN D. WILKINSON,
Petitioner
vs.
COMMISSION FOR LAWYER DISCIPLINE,
Respondent

Certificate of Compliance with Volume Limit, Typeface
and Type Style Requirements
I, the undersigned, certify that the petition for writ of certiorari contains 4,786
words, excluding the parts of the petition that are exempt by Supreme Court Rules and
comply with the typeface and type style requirements.
/s/ Kristin Wilkinson
Kristin Wilkinson
P.O.Box 701188
Houston, Texas 77270
(713) 561-5616
kristinwilkinson@use.startmail.com

